--   -   --                              - -.   -        -        -    -      --                       -     - -




                                                    CLOSEOUT FOR M96100034




         o n ( October 1996, a program manager' informed OIG about possible research improprieties
         by the subject2 that had come to the manager's attention in the course of arranging for the
         review of the subject's NSF proposal (the first proposal).3 The program manager
         subsequently provided OIG with a letter received from an ad hoc reviewer4and copies of two
         other NSF proposalss (the second and third proposals) recently submitted by the subject. The
         third proposal was a revision of the second.

         The reviewer described concerns that had been expressed previously by scientists about the
         data in a manuscript6 and papers7 the subject had submitted for publication to four different
         journals. The reviewer stated that the manuscript and the papers contained data that had been
         inappropriately distorted and misrepresented by the subject. OIG learned that the reviewer
         had reviewed an earlier proposal the subject had submitted to the Public Health Service
         (PHs)' and that the reviewer had provided this' same information about the subject's
         manuscript and papers to that agency. The reviewer alleged that both the NSF and the PHs
         proposals relied on information from these papers. On the basis of a request from the Office
         of Research Integrity (ORI), the institution had initiated an inquiry into these matters.

         OIG learned that the institution's inquiry concluded that most of the data irregularities had
         been corrected by the time the manuscript was published or the papers had been retracted.
         However, it was unable to rule out "intentional fraud" and was "particularly disturb[ed]" by
         the subject's "failure to correct the apparent cause(s) of such repetitive reporting errors." It
         concluded that an investigation was necessary. Upon learning of this conclusion, the subject
         resigned from the institution and it decided not to process the case hrther. OR1 closed its




                                                    -
         ' The program manager is ~                 rof t       h . e     y Program in the Division 0
         C      h     i        t  h    i n the Directed-J.
             The subject is1-1.D
                               r              a Researcher Associate at t h          e        ( at the University
                    (the institution).
         '   The subject's declined NSF p r o p o s a l (the first proposal) is entitled,D
                                                                                 I'
                                                                                         --1
             The ad hoc reviewer is ~fr-.pof                  the Department a-t             he-t
                                                                is entitled, '                                   -
                                               " It was withdrawn by the subject because he submitted a revision, the third
                                                proposal had the same title as the second. The third proposal was withdrawn by
         the institution after the subject's resignation.
           The manuscript in question was an early version of the third paper cited in the footnote below. The manuscript
         had been sent to ano



         'The proposalc-)was                        submitted to the Public Health Service by the subject.


                                                             Page 1 of 2                                      M96-34
                            CLOSEOUT FOR M96100034
case because it lacked jurisdiction over the questioned research and there was no substantial
allegation of misconduct related to the PHs proposal.

OIG reviewed the three proposals the subject had submitted to NSF. The first had been
declined and the other two had been withdrawn. Only two of the papers reviewed by the
institution's inquiry committee were cited in these proposals. The citations in the NSF
proposals to those papers were for general research, background, or procedural information,
rather than for specific data. The reviewer of the first proposal remarked on the absence of
preliminary data in it demonstrating the feasibility of the proposed research project. OIG
concluded that the matters described by the reviewer were serious but that the subject had
never received funds from NSF and consequently, NSF had not fbnded the work described in
the papers reviewed by the institution's inquiry committee. Further, there was an insufficient
link between the papers and the discussions in the subject's three proposals for OIG to pursue
this matter further.

OIG closed this inquiry and will take no further action.


cc: Staff Scientist, AIG-Oversight, IG




                                     Page 2 of 2                            M96-34
